<html>
<title> - THE BOWL CHAMPIONSHIP SERIES: MONEY AND OTHER ISSUES OF FAIRNESS FOR PUBLICLY FINANCED UNIVERSITIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 THE BOWL CHAMPIONSHIP SERIES: MONEY AND OTHER ISSUES OF FAIRNESS FOR 
                     PUBLICLY FINANCED UNIVERSITIES 

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2009

                               __________

                           Serial No. 111-34


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

72-883 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





























                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman

JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JAN SCHAKOWSKY, Illinois             SUE WILKINS MYRICK, North Carolina
HILDA L. SOLIS, California           JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           TIM MURPHY, Pennsylvania
JAY INSLEE, Washington               MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin             MARSHA BLACKBURN, Tennessee
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
ANTHONY D. WEINER, New York          STEVE SCALISE, Louisiana
JIM MATHESON, Utah                   PARKER GRIFFITH, Alabama
G.K. BUTTERFIELD, North Carolina     ROBERT E. LATTA, Ohio
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA CHRISTENSEN, Virgin Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE BRALEY, Iowa
PETER WELCH, Vermont

                                  (ii)
        Subcommittee on Commerce, Trade, and Consumer Protection

                        BOBBY L. RUSH, Illinois
                                  Chairman
JAN SCHAKOWSKY, Illinois             CLIFF STEARNS, Florida
    Vice Chair                            Ranking Member
JOHN P. SARBANES, Maryland           RALPH M. HALL, Texas
BETTY SUTTON, Ohio                   DENNIS HASTERT, Illinois
FRANK PALLONE, Jr., New Jersey       ED WHITFIELD, Kentucky
BART GORDON, Tennessee               CHARLES W. ``CHIP'' PICKERING, 
BART STUPAK, Michigan                    Mississippi
GENE GREEN, Texas                    GEORGE RADANOVICH, California
CHARLES A. GONZALEZ, Texas           JOSEPH R. PITTS, Pennsylvania
ANTHONY D. WEINER, New York          MARY BONO MACK, California
JIM MATHESON, Utah                   LEE TERRY, Nebraska
G.K. BUTTERFIELD, North Carolina     MIKE ROGERS, Michigan
JOHN BARROW, Georgia                 SUE WILKINS MYRICK, North Carolina
DORIS O. MATSUI, California          MICHAEL C. BURGESS, Texas
KATHY CASTOR, Florida
ZACHARY T. SPACE, Ohio
BRUCE BRALEY, Iowa
DIANA DeGETTE, Colorado
JOHN D. DINGELL, Michigan (ex 
    officio)
  
























                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     3
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     5

                               Witnesses

John D. Swofford, Commissioner, Atlantic Coast Conference........     7
    Prepared statement...........................................    11
    Answers to submitted questions...............................    87
Craig Thompson, Commissioner, West Mountain Conference...........    23
    Prepared statement...........................................    25
    Answers to submitted questions...............................    95
Derrick Fox, President and CEO, Valero Alamo Bowl, Football Bowl 
  Alliance.......................................................    48
    Prepared statement...........................................    50
    Answers to submitted questions...............................    97
Gene Bleymaier, Athletic Director, Boise State University........    58
    Prepared statement...........................................    60
    Answers to submitted questions...............................   104

                           Submitted material

Letter of April 29, 2009, from the Bowl Championship Series......    83
Letter of April 28, 2009, from the Football Bowl Association.....    85


 THE BOWL CHAMPIONSHIP SERIES: MONEY AND OTHER ISSUES OF FAIRNESS FOR 
                     PUBLICLY FINANCED UNIVERSITIES

                              ----------                              


                          FRIDAY, MAY 1, 2009

                  House of Representatives,
           Subcommittee on Commerce, Trade,
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:12 a.m., in 
Room 2123, Rayburn House Office Building, Hon. Bobby L. Rush 
[chairman of the subcommittee] presiding.
    Present: Representatives Rush, Green, and Barton (ex 
officio).
    Staff Present: Christian Tamotsu Fjeld, Counsel; Valerie 
Baron, Legislative Clerk; Michelle Ash, Counsel; Brian 
McCullough, Minority Senior Professional Staff; William Carty, 
Minority Professional Staff; Shannon Weinberg, Minority 
Counsel; and Chad Grant, Minority Legislative Analyst.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. The subcommittee will come to order.
    I want to thank the members of the committee, the 
witnesses, and those who are in the audience today for taking 
the time out for appearing before this rare Friday a.m. 
Subcommittee hearing; and the Chair now recognizes himself for 
5 minutes for opening statements.
    Crowning a national champion in college football has long 
been controversial. Whether it has been decided by the AP 
sportswriters poll or by the current bowl championship series, 
fans and sports-talk radio have always argued over which team 
deserves to be number one. While personally I favor some sort 
of playoff system to determine a national champion, as does 
President Obama, I understand and appreciate the history and 
tradition of the bowl system.
    However, criticism of the BCS goes beyond just a mere 
sporting interest in determining the team that most deserves to 
be national champion. This is indeed about money, and it is 
about money at taxpayer-funded colleges and universities. 
College football is big business, and the BCS strikes many 
critics as unfair from a financial perspective.
    There are 11 athletic conferences that make up Division 1 
college football. Under the current BCS system, six of those 
conferences--the ACC, SEC, the Big East, the Big 12, the big 
10, and the PAC 10--are guaranteed $18 million each to 
distribute among their member schools; while the five other 
nonautomatic conferences--the Sun Belt, the WAC, the MAC, 
Conference USA, and the Mountain West conference--only receive 
$9.5 million combined. Notre Dame, an independent school, 
automatically receives $1.3 million all by itself.
    How can we justify this system during these tough economic 
times when States are slashing their budgets and cutting 
spending on education? And let me be clear that we are not 
examining a trivial matter at today's hearing. Colleges and 
universities are funded by taxpayer dollars; and we have to ask 
whether or not the big, dominant conferences are engaged in 
uncompetitive behavior and negotiating contracts at the expense 
of smaller conferences and their schools. In other words, are 
the big guys getting together and shutting out the little guys?
    Such disparity in revenue distribution would arguably be 
justifiable were the schools from the automatic conferences 
simply better athletically than those from the nonautomatic 
conferences. But for the past year, and for in the past several 
years, this has clearly not been the case.
    Let's look at last year. Both the ACC and the Big East 
failed to produce a single team in the Top 10 of the BCS 
standings, while the Mountain West and the WAC each had a team 
in the Top 10, Utah and Boise State. Yet both the ACC and the 
Big East received almost $19 million each in BCS revenue, while 
the Mountain West received only $9.8 million, and the WAC 
received $3 million. On its face, this does not seem fair or 
tied to actual performance on the field.
    Nonetheless, I do want to keep an open mind on this matter 
and hear from our distinguished panelists today. I am eager to 
hear from Commissioner Swofford and Mr. Fox on their views on 
the way the BCS revenue is currently distributed, why it is 
fair and equitable to taxpayer-funded colleges and 
universities.
    I want this to be a deliberative hearing and a robust 
exchange of ideas. The BCS recently signed a new television 
contract with ESPN reportedly worth $125 million a year 
starting in 2011. I will be interested to know how the BCS 
intends to distribute this considerable sum of dollars to 
colleges and universities across the country.
    Lastly, I just want to thank my friend, the distinguished 
ranking member and former chairman of the full committee, Mr. 
Barton, for his extensive and commendable work on this matter. 
Mr. Barton has some strong--I might say very strong opinions on 
this subject, and I appreciate his passion and commitment to 
exploring this issue among many other issues that this Congress 
is facing. Mr. Barton has introduced legislation on this issue, 
legislation that I have cosponsored, and I sincerely hope that 
we can discuss this bill as well.
    I want to thank all of our witnesses for appearing before 
us today, and I appreciate your travel to the Nation's capital 
on relatively short notice.
    I yield back the balance of my time; and now I recognize 
the ranking member of the full committee, my friend from Texas, 
the one and only, Joe Barton.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman.
    I do have strong opinions. My strongest opinion on this 
issue is the fact that my team, Texas A&M, is never mentioned 
in the same breath as national champion for college football, 
but with Coach Sherman maybe one of these days will change.
    I, along with you, want to welcome our distinguished panel. 
This is not the oversight subcommittee, so we don't subpoena 
people to testify. You folks all came of your own volition when 
we asked you to, and we appreciate it, both those of you who 
are proponents of the playoff and those of you who have some 
doubts about it. So we are extremely gratified you would come 
on Friday.
    When I was chairman of this committee, I held a hearing on 
the same subject 3 years ago, 4 years ago, to just give 
attention to it; and at that time in that hearing I had hoped 
that through a spirit of volunteerism that the BCS would decide 
to go to a playoff system. That hasn't happened yet.
    It is interesting that people of goodwill--and I think 
everybody on whatever side of the issue you are on this one is 
a person of goodwill--keep trying to tinker with the current 
system; and it is to my mind a little bit like--and I don't 
mean this directly--but it is like communism. You can't fix it. 
It will not be fixable. Sooner or later, you're going to have 
to try and remodel. And that's why we are here today.
    We have heard about the thrill of victory and the agony of 
defeat on ABC Wide World of Sports, but, as Mr. Rush says, 
sports fans seldom think about the money. We are going to talk 
about the money a little bit today. Chairman Rush mentioned it 
in his opening statement, and it is I think an important reason 
why we do not have a playoff system.
    Last year, the so-called championship game had two teams 
that had each lost a game, but there were several other games 
that had only lost one game, and there was a team that hadn't 
lost any games, Utah, that wasn't in the national championship 
game. If you had a playoff system, you wouldn't have that 
problem. The people in the playoff game, the championship game, 
would be there because they would have beaten everybody else.
    No system is perfect, but why is it in the NCAA, every 
other sport they give a championship? It is won on the field or 
on the track or on the golf course or in the gymnasium. It is 
not won because two teams are kind of picked out of a hat or as 
a result of a poll in a computer system and allowed to play for 
the national championship.
    Several college coaches that are well known have said that 
they are advocates for a playoff system. Urban Meyer, who is 
head coach of the current national championship team, Florida, 
has stated in the past that he favors a playoff. Nick Saban, 
Pete Carroll, the head coach at Texas, Mack Brown.
    In May of 2008, one of the winningest college football 
coaches of all time, Joe Paterno, said, and I quote, I think 
you ought to win it on the field. I've always been for a 
playoff. End quote.
    We didn't ask the coaches of Boise State and Utah to be 
here today, but if they were here and testifying I think they 
would say they were for a playoff.
    There are countless coaches, even a few university 
presidents, and, believe it or not, the President, President 
Obama, who has stated that they think we need to have a playoff 
the same as we have in every other sport.
    The more I think about it and the more people I talk to who 
really know college football, it is clearer and clearer to me 
that the reason we don't have a playoff system is a very green 
reason. It is not green environmentally. It is green money. It 
is that simple.
    As Chairman Rush has said, you know, a $125 million 
television contract and all the other contracts that are not 
through nationally but through regionally, it is just too much 
money being made this way and people don't want to change that.
    This is interstate commerce. This committee has every right 
to regulate interstate commerce. The bill that I introduced 
that Chairman Rush is a cosponsor of doesn't say there has to 
be a playoff. It simply says, if you're going to advertise it 
as a national championship series and a national championship 
game, it has to be the result of a playoff. Otherwise, it is a 
false and deceptive trade practice under the Federal Trade Act.
    So you couldn't advertise. You couldn't get the money. You 
couldn't sell the T-shirts. You couldn't do all those things 
that you do under the current system.
    So it is not Congress being dictatorial. It is Congress 
saying truth in advertising. If we're going to have a national 
championship game, a national championship team, it ought to be 
the result of a playoff.
    I think equity is a factor here, too. My guess is when Mr. 
Swofford and Mr. Fox talk later they are going to talk about 
the student athlete, as well they should. But it is interesting 
to me we just added another regular season game. I don't see 
how that helps academics. And we are also playing college 
football on Tuesdays, Wednesdays, and Thursdays. Those are not 
normal evenings that our student athletes should be out on the 
football field. They should be in study hall or something like 
that.
    And the reason that they are playing Tuesdays, Wednesdays, 
and Thursdays is not because they are making straight A's in 
classes, although some of them may be. It is because their 
schools need the extra money; and their coaches are hopeful 
that the extra exposure, especially if they are from a non-BCS 
conference, might get a little bump in the polls and move up so 
that they might have a shot at one of the at-large bids in the 
BCS.
    Some movement has been made. I am told that there was some 
discussion at the last BCS meeting, wherever that was, about a 
playoff, but that it was rejected. I think that is a step in 
the right direction that they are talking about it. But the 
real step is to go ahead and implement it.
    I don't buy the argument that you can't change because of 
television contracts. Those contracts have kick-out clauses. It 
would be very easy to implement a playoff system.
    I also don't buy the argument--although I am going to 
listen closely to Mr. Fox from the Alamo Bowl--that it would 
somehow destroy the bowl system or the mid-range bowls, things 
like this. They could be a part of the playoff system. They 
could be an addition to the playoff system.
    The NIT basketball tournament has thrived in the midst of a 
65-team playoff for the college basketball championship. As I 
asked Mr. Fox off camera, if Texas A&M and Texas Tech were in a 
playoff and the first round was at the Alamo bowl, I think the 
Alamo Bowl would do pretty well.
    So, in any event, Mr. Chairman, I see my time has way 
overexpired. I am for college football. I enjoy watching it. I 
enjoy going to the games in person.
    I have a wife who is a fanatic University of Texas longhorn 
fan. She had season tickets at Texas. And so it makes for some 
interesting Thanksgivings when A&M and Texas are playing in my 
home. I have had ham sandwiches on the back porch as much as I 
have had hot turkey in the dining room in some of these last 
few years.
    But I hope we can work this out. And, again, thank you for 
holding the hearing; and, you gentleman, thank you for 
testifying. At least you are willing to go on the record. And 
as I've told some of you privately, there is a whole bunch of 
heated intensity off the record, but there is not nearly as 
many people willing to go on the record. So we appreciate you 
being here.
    Thank you, Mr. Chairman.
    Mr. Rush. The Chair thanks the ranking member.
    Now the Chair recognizes my friend, my classmate, the 
Congressman from Texas, Mr. Green, for 5 minutes of an opening 
statement.
    And, prior to that, the chairman sees that the gentleman 
has a helmet. Are we going to engage in any kind of combat on 
the hearing? Or that is just----
    Mr. Barton. Mr. Chairman, that violates House rules, but I 
am not going to object.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Mr. Chairman, I have a blue collar district. We 
normally wear hard hats, just not this hard.
    Mr. Chairman, I want to thank you for holding the hearing 
on this. And, just for the public's interest, our Energy and 
Commerce Committee has been spending weeks and actually months 
now working on carbon sequestration and health care; and this 
is much more fun to talk about. Because I am actually here 
today, even though Congress is not, because I thought we were 
going to have some work on our energy work. And coming from 
Houston, Texas, that is awfully important in our community, but 
I am glad the Chair of our subcommittee held the hearing on 
bowl championship series and NCAA Division 1 college football.
    I want to thank our witnesses, like my colleagues did, for 
traveling across the country. The problem is, you have two 
Texans here and only one fellow from Chicago. So you are going 
to have to listen to a lot of UT A&M and, in this case, 
University of Houston, because I know you traveled from across 
the country.
    Over the last several seasons, there has been growing 
frustration from the system and less than unanimous agreement 
on the teams that should be playing a bowl championship series 
national title game. The most recent title game this January 
was no exception. There was hardly agreement from professional 
commentators and fans alike that Oklahoma and Florida were the 
two best teams in the country.
    Now I am an alumnus of the University of Houston, and while 
it has been a while since the Cougars were at the top of the 
polls, my family is divided because my son went to Texas A&M, 
my daughter went to University of Texas. And as we know that UT 
beat Oklahoma earlier in the year in the Red River Shootout, 
many people thought they were a better team to contend for the 
national title.
    There were also two undefeated teams, Utah and Boise State, 
that established themselves as top caliber teams over the 
recent years with bowl wins over larger schools and impressive 
regular season records.
    Despite coming from conferences that do not receive an 
automatic bid into a BCS bowl game, the coalition conferences 
that do not receive an automatic bid at BCS bowl game also 
receives significantly less money from BCS-generated revenue, 
approximately half of the $18 million the automatic BCS 
conferees receive.
    While the coalition conference does receive a larger share 
if they place a team in the BCS bowl, the odds are so highly 
stacked against them, as we saw last year with Utah and Boise 
State, they rarely have that opportunity.
    Last season, my alma mater, University of Houston, actually 
won its first bowl game since 1980 when it defeated Air Force 
in the Armed Forces Bowl. If the Cougars program gets back to 
where it was in late '70s, when they finished fourth in the AP 
and Coach's poll in '76 and fifth in 1979, I would hope they 
would have the opportunity to compete in the BCS bowl. But 
recent history has shown that, under the BCS system, odds are 
not in their favor since they are a coalition conference.
    Mr. Chairman, I thank you for holding the hearing and look 
forward to fairness of the BCS system. I know our witnesses 
today have a number of different viewpoints on the issue, and I 
look forward to the testimony.
    In the sports pages and in the college towns across the 
country there is growing frustration that the current system is 
significantly flawed, and I am pleased Craig Thompson is here, 
because I read several articles last week in the Houston 
Chronicle about your presentation of BCS and suggested changes. 
And while I understand it may be still under consideration, 
again, thank you for being here and appreciate the time today.
    But, again, for the mass public who is worried about carbon 
and health care, we are working on those, but we can walk and 
chew gum at the same time.
    Mr. Rush. The Chair thanks the gentleman.
    Now the Chair is indeed gratified to welcome our witnesses 
before this panel. Again, I want to reiterate our deep 
appreciation for you taking the time out from your very busy 
schedules to appear before this subcommittee; and I just want 
to assure you that this subcommittee, the chairman, and I 
believe that the Members of Congress have a keen interest in 
this particular issue and that this interest will give us an 
opportunity to have some meaningful discussions and debate 
around this particular issue as we go forward.
    Before I swear you in, I just want to say that about a week 
ago I read in the USA Today a comment that was at the risk of 
our congressional involvement--legislative involvement on this 
particular issue, but--and I can't remember the author of the 
statement, the gentleman that the statement was attributed to, 
but I can assure you each and every one of you, that he was 
dead bang wrong. We are quite interested in it. Indeed, some 
are very passionate about it. And I don't see it is not in the 
interests of college football for anyone to be dismissive of 
our congressional intent, our responsibility, and our 
congressional commitment.
    So, with that said, I am going to welcome our witnesses; 
and I would ask you, because it has been a new practice of this 
subcommittee, to swear in witnesses. So I would ask you to 
stand and please raise your right hand.
    [Witnesses sworn.]
    Please let the record reflect that all witnesses have 
answered in the affirmative. Please take your seat.
    And I will introduce the witnesses first, because we hear 
their opening statements. To my left, to your right, is Mr. 
John D. Swofford, who is the current Commissioner of the 
Atlantic Coast Conference. Next to Mr. Swofford is Mr. Craig 
Thompson, who is the Commissioner of the West Mountain 
Conference. And next to Mr. Thompson is Mr. Derrick Fox, who is 
the President and CEO of the Alamo Bowl, representing the 
Football Bowl Alliance. And, lastly, next to Mr. Fox is Mr. 
Gene Bleymaier, who is the Athletic Director of Boise State 
University.
    Again, welcome each and every one of you.

 STATEMENTS OF JOHN D. SWOFFORD, COMMISSIONER, ATLANTIC COAST 
    CONFERENCE; CRAIG THOMPSON, COMMISSIONER, WEST MOUNTAIN 
CONFERENCE; DERRICK FOX, PRESIDENT AND CEO, VALERO ALAMO BOWL, 
FOOTBALL BOWL ALLIANCE; AND GENE BLEYMAIER, ATHLETIC DIRECTOR, 
                     BOISE STATE UNIVERSITY

    Mr. Rush. Mr. Swofford, we will begin with you for 5 
minutes of opening statements or thereabouts. Please pull the 
mic to you and turn it on, and you're now recognized.

                 STATEMENT OF JOHN D. SWOFFORD

    Mr. Swofford. Thank you, sir.
    Mr. Chairman, members of the subcommittee, Ranking Member 
Barton, ladies and gentlemen, my name is John Swofford; and I 
have been commissioner of the Atlantic Coast Conference since 
1997. Prior to that, I was the Athletic Director at the 
University of North Carolina, my alma mater, for 17 years.
    I speak to you today not only as someone who has been 
fortunate to spend my entire professional career as an athletic 
administrator but also as a former student athlete in the sport 
of football. While I was in college I was fortunate to play at 
UNC and participate in two post-season bowl games. Like most 
student athletes, my football career ended when I received my 
undergraduate degree. My own experiences in the Peach Bowl and 
Gator Bowl remain among the fondest memories of my athletic 
career. As an administrator, I have tried to ensure that those 
same post-season opportunities exist for as many student 
athletes as possible.
    Currently, the Atlantic Coast Conference serves as the 
coordinating offices for the bowl championship series. This is 
an assignment that rotates every 2 years among the conferences 
that are a part of the BCS arrangement. The BCS is now 11 years 
old, and it is the result of a group of people at the various 
conferences and selected bowls asking one question: How can we 
keep the bowl system and also create a championship game that 
includes the number one and number two ranked teams on an 
annual basis?
    Prior to the current BCS structure, the two top-rated teams 
played each other only nine times in 45 years. The BCS exists 
to accomplish three relatively simple goals: one, create the 
opportunity for a national championship game; two, maintain the 
bowl structure and create quality match-ups; and, number three, 
maintain and enhance college football's regular season as the 
best and most meaningful in all of college sports.
    The BCS has been successful in reaching these three goals. 
It has paired the number one and number two ranked teams in the 
Nation on an annual basis. It now includes all 11 of the 
football bowl subdivision conferences. Every conference has 
more access into the highest level of bowl games, more money 
and access potentially into the national championship game than 
ever before.
    During the BCS 11-year span, college football has 
flourished, attendance is soaring, television ratings are high. 
BCS television ratings regularly outrate the NCAA basketball 
Final Four, the NBA playoff finals and the World Series.
    Recently, the level of interest of young people in various 
sports was measured. NASCAR and the NFL over the last decade 
gained 1 percent. College football gained 9 percent in the 12 
to 17 age group, the largest gain of any sport. Most every 
other sport has actually devalued the regular season, while 
college football's regular season has only gained in stature, 
interest, attendance and television coverage. While realizing 
that many American sports fans relate very well to a playoff 
system, much of this could be lost if the regular season were 
turned into a seeding process.
    The current system maintains long-term bowl alliances. 
Bowls have existed for over 90 years, in some cases, starting 
with the Rose Bowl. They stand as cultural icons in our 
country. Twenty-nine non-BCS bowls create regional interest, 
support charitable causes, generate tourism, economic impact, 
and tax dollars for host cities, as well as give approximately 
6,000 young men, most of whom are not fortunate enough to play 
on college championship teams, the chance to enjoy a memorial 
post season experience.
    Bowls are not merely games. They are events.
    Teams do not travel to them the day before the game and 
leave immediately afterward as in the regular season or would 
be the case in a playoff. Rather, they go to the host city and 
stay as many as 6 days, enjoying the hospitality of the bowl 
organization. Fans travel to the games and stay for several 
days, thus generating economic benefits for the host city and 
allowing the bowl to attract local sponsors and support that 
help it fulfill its economic and charitable missions.
    For example, the Sugar Bowl estimates that the two BCS bowl 
games played in January, 2008, created an economic impact in 
the City of New Orleans and the State of Louisiana of nearly 
$400 million. State and local governments realized nearly $25 
million in tax revenues as a result of those two games.
    We cannot reasonably expect fans and teams to travel 
multiple times in December or January staying several days in 
each location. Our fans do not have the time, and most do not 
have the financial resources to do so. Moreover, I am not aware 
of any football playoff in this country at any level in which 
all games are played at predetermined neutral sites that may be 
thousands of miles from the homes of the participating teams.
    College football is different than professional. There are 
120 bowl subdivision college football teams, and our preference 
is that a system provide a large number of those teams with a 
post-season opportunity. Professional football, with only 32 
teams, can make a 12-team playoff work nicely within its 
structure.
    Like all other football playoffs in the NCAA and the 
professional leagues, early round games of any bowl subdivision 
playoff would almost certainly be played at campus sites, with 
only the final contest at a neutral site. As the playoff grows, 
sponsorship and television revenues that historically have 
flowed into bowl games and their host cities will inevitably 
follow, meaning that it will be very difficult for any bowl, 
including the current BCS bowls, which are the oldest and most 
established in the game's history, to survive.
    The current system also keeps football a one-semester 
sport, maintains the integrity of the regular season, preserves 
the overall bowl system, does not conflict with fall semester 
exams in most instances, and adds only one additional game.
    One of the reasons we are where we are in post-season 
college football is because of the fact that the BCS is a 
system that the conferences have individually and collectively 
been able to agree on. Decisions concerning the BCS arrangement 
are made by a Presidential oversight committee, which is a 
group of university presidents and chancellors with advice from 
conference commissioners, athletic directors, and coaches. The 
BCS arrangement is reviewed annually by all 11 conference 
commissioners and an athletic director advisory panel. We also 
seek the advice of representatives of the American Football 
Coaches Association on certain matters.
    Ultimately, our presidents and chancellors remain strongly 
committed to the balance of academic and athletic excellence. 
Their first priority is their students and preparing them for 
their futures. The BCS, we find, is fully consistent with the 
educational mission of our colleges and universities and 
maximizes the number of post-season opportunities for our 
student athletes, coaches, and fans.
    Now each year one or more of the conferences submits ideas 
for change in the current system. All of them receive careful 
and deliberate consideration. Last year, for example, the 
Atlantic Coast Conference and the Southeastern Conference 
proposed a format adjustment. This year, the Mountain West has 
suggested a different adjustment in the format, and the 
conferences will consider that proposal during their various 
upcoming spring meetings.
    Mr. Rush. Mr. Swofford, you're almost 4 minutes over, but I 
have been pretty lenient, so please close your comments, 
please.
    Mr. Swofford. Thank you, sir.
    We are aware that no mechanism for determining a college 
football national champion will ever be perfect, without 
controversy or without ambiguity. We are always open to 
suggestions to improve BCS or the game of college football as a 
whole.
    In closing, college football continues to be managed within 
the context of higher education. University presidents and 
chancellors seek a balance between the academic missions of 
their institutions and the desire of fans for a system to crown 
the national champion. We want to maintain the significance of 
the regular season and support a vibrant post-season bowl 
structure that provides a maximum number of opportunities for 
student athletes.
    Mr. Chairman, I have a letter from a number of conferences, 
presidents, and the University of Notre Dame that I would like 
to submit for the record please.
    Mr. Rush. So ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Swofford. Again, thank you for the opportunity to be 
with you today and to address these matters.
    [The prepared statement of Mr. Swofford follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. The Chair now recognizes Mr. Thompson for 5 
minutes or thereabouts.

                  STATEMENT OF CRAIG THOMPSON

    Mr. Thompson. Thank you, Chairman Rush, Ranking Member 
Barton, and members of the subcommittee for holding this 
important hearing. I appreciate the opportunity to be here 
today.
    The presidents of our nine member institutions believe 
there are five fundamental flaws with the current BCS system. 
They also feel criticism without a solution solves nothing. 
Therefore, the Mountain West Conference has submitted a 
proposal known as the BCS reform proposal which addresses each 
of those flaws.
    First, BCS revenue distribution is grossly inequitable. 
There are six automatic qualifying conferences, known as AQ 
Conferences, whose champions are guaranteed access to lucrative 
BCS bowl games each year regardless of how they perform on the 
field. These conferences receive more than 87 percent of the 
revenue from the BCS, whereas the other five conferences, 
called Nonautomatic Qualifying Conferences, collectively 
receive under 13 percent.
    Under the current system, conferences that perform in a 
similar manner are not treated the same. The Mountain West has 
performed well against the six Automatic Qualifying Conferences 
and interconference games over the past 4 years. Yet during 
that same span the BCS has paid each of these six conferences 
an average of $78 million in revenue, while we received just 
$18 million.
    To illustrate the point, in 2008, the Mountain West and an 
AQ Conference each at had one team playing the BCS bowl. We had 
three teams ranked in the top 16, all of whom finished above 
that conference's champion. Yet the AQ Conference still 
received almost 9 million more than the BCS for that year.
    If the revenue were more fairly distributed, nonautomatic 
qualifying universities could use the additional funds to 
improve academic programs, increase scholarships, increase 
medical support for student athletes, and pursue a host of 
other beneficial purposes. The reform proposal would also 
result in considerable new revenue for all conferences so that 
all universities would benefit financially. In this economic 
climate, that is extremely important.
    Second, the BCS relies on non-performance based standards 
to determine which conferences are guaranteed access. 
Specifically, the BCS uses bowl tie-ins and agreements to 
determine which conferences automatically qualify. Prearranged 
agreements trump results on the field. The reform proposal 
ensures that performance is the primary factor in determining 
which conference champions automatically qualify for the high-
profile BCS bowls. Under the proposal, a conference has to win 
at least 40 percent of its interconference games against AQ 
Conferences over a 2-year period to earn an automatic bid.
    Third, none of the 51 teams that play in non-AQ Conferences 
can realistically ever have the opportunity to win a BCS 
national championship, given how the current system is 
constituted. Such a result is patently unfair.
    Again, in 2008, the Mountain West had the best 
interconference record against AQ Conference teams; and Utah 
had the best record in major college football. However, those 
student athletes did not have an opportunity to compete for the 
national championship. Utah was eliminated this past season not 
by a team but by the BCS system.
    The BCS incorrectly presumes that computers and pollsters 
can look at several outstanding teams and somehow determine 
which two deserve to play in a national championship game. To 
remedy this flaw, the reform proposal creates an 18 playoff. 
This will not only produce substantial new revenue, but it will 
also make the regular season and post season much more 
exciting.
    Minimal regular season games will impact the national 
championship race under this proposal, and the number of post-
season games with title implications will also increase 
exponentially. The playoff would only add about 1.5 weeks to 
the season during winter break and then only for two teams.
    Fourth, the BCS relies on confusing computer formulas and 
pollsters to decide the BCS rankings. The reform proposal would 
use a well-informed committee like the committee in college 
basketball to make these important determinations.
    Fifth, the BCS dictates unbalanced representation on its 
governing body. The reform propose would permit each conference 
and Notre Dame to have exactly one vote. Our presidents believe 
that, by remedying these five flaws, the BCS reform proposal 
helps to ensure higher education is sending the appropriate 
messages to students and is acting above reproach.
    One of the primary objectives of universities is to ensure 
students graduate with a firm understanding of the principles 
of fundamental fairness and equitable treatment. Yet support of 
the current BCS system is not consistent with those principles. 
It is inconsistent with the message that if you work hard you 
have a chance to reach any goal. That is simply not true under 
the current BCS format.
    Given the system's fundamental flaws, it is time for the 
BCS to act. It should join President Obama, Vice President 
Biden, and Members of Congress from both parties in 
acknowledging the need for change and take the appropriate 
steps now to develop a more equitable system.
    Thank you very much for your time, and I look forward to 
answering questions.
    Mr. Rush. Thank you, Mr. Thompson.
    [The prepared statement of Mr. Thompson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. The Chair now recognizes Mr. Fox for 5 minutes or 
thereabouts for an opening statement.

                    STATEMENT OF DERRICK FOX

    Mr. Fox. Thank you, Mr. Chairman.
    Mr. Chairman, members of the subcommittee, and Ranking 
Member Barton, my name is Derrick Fox. I am the former chairman 
and currently at-large member of the Football Bowl Association. 
I am also president and CEO of the Valero Alamo Bowl in San 
Antonio, Texas.
    I am here today representing the members of the Football 
Bowl Association, a group that includes all 34 post-season bowl 
games, from the members of the BCS to the smallest of the post-
season events. These games are played in 29 different 
communities. Our association has been in existence for more 
than a quarter century, and we have grown as the number of bowl 
games has grown.
    My purpose in appearing here today is to tell you the 
current bowl system, for whatever flaws it may have, is more 
than just alive and kicking but also it is to say that if the 
net result of your efforts is to create a playoff, we will 
believe you will, by substituting games for events, cause the 
demise of the bowl system.
    My prepared statement details the current post-season 
structure, the benefits to the institutions, and the benefits 
to the players and their fans. But I would like to stress to 
you the benefits enjoyed by the communities where these games 
are played.
    What does it mean to the 29 communities where the games are 
held? For one thing, since almost all the post-season bowl 
games are put on by charitable groups, with up to one-quarter 
of the proceeds from the games dedicated to the community, 
local charities receive tens of millions of dollars every year. 
Excluding television and print exposure these communities 
receive, it has been estimated the bowl games will generate in 
excess of $1 billion in annual economic impact.
    As I said before, we don't put on games; we put on events. 
Fans make the bowl experience a holiday experience, spending up 
to 1 week in the community, supporting pre- and post-Christmas 
businesses and hotels, restaurants, businesses, and visitor 
attractions.
    Moreover, the title sponsor or presenting sponsors of bowl 
games frequently is a commercial institution headquartered in 
the host city whose integration in the community and vice versa 
is enhanced by the bowl game itself.
    It is our firm belief that if a playoff is created the 
television dollars in the post season will flow to that 
playoff. Likewise, the sponsorship dollars. And when that 
happens, the mid-tier bowls and most assuredly the smaller 
bowls will simply go out of business.
    Those who don't like the current system will say, well, 
that is the way of the world. But we don't believe that 
government should have any role in promoting the demise of the 
bowl games.
    Let me address a situation I am quite familiar with, being 
the president and CEO of the Valero Alamo Bowl in San Antonio. 
Periodically, we have conducted an economic and fiscal impact 
analysis for our event. The most recent study was done 14 
months ago between Penn State and Texas A&M. This was not some 
back-of-the-envelope estimate but, rather, a 30-page, intensive 
analysis performed by the combined efforts of two respected 
sets of economists, Sports Strategic Marketing Services of 
Memphis, Tennessee, and Sports Economics of Oakland, 
California.
    They concluded that there were more than 55,000 incremental 
visitors coming to San Antonio for the game who spent an 
average of just over $740 during their stay. They stayed on 
average for 3.8 days, spending $195 a day, plus an additional 
$142 in tickets and other costs in the Dome. These visitors 
included not only the fans of the competing schools but the 
teams themselves and a full contingent of media covering the 
event. Their expenditures included lodging, food and beverage, 
transportation, rental cars, retail, and entertainment.
    According to the study, the direct economic impact to the 
City of San Antonio was $42.6 million. The total economic 
impact on the City of San Antonio, including the recognized 
multiplier, was $73.7 million. And the incremental tax impact 
to the City of San Antonio, i.e., taxes collected as a result 
of the events, operations, and nonlocal visitors traveling to 
that city, would not have accrued to the region if it were not 
for the presence of the event being measured, was $2.7 million.
    Why do I cite all this? The reason is simple. We don't 
simply put on a game. We put on an event that runs the better 
part of a week. It involves not only the game itself but a 
kickoff function, a team fiesta, a pep rally, a great party, 
golf tournament, FCA breakfast, team days at Sea World, Alamo 
visit, hospital visits, you name it. It is an entire week's 
package for the student athletes and their fans.
    Create a playoff and if the post-season games do not 
involve the home games on college campuses, you will create a 1 
day in-and-out experience, if that, to replace the current bowl 
system.
    The proponents of a playoff system simply do not understand 
the economics of the current system as one of events, not just 
games. No system is perfect. The bowls are not perfect, and the 
bowl championship series is not perfect. But certainly the 
concept of a playoff, as attractive as it may sound from 
experts on sports-talk radio, is rife with dangers for a system 
that has served collegiate athletics pretty well for 100 years.
    It is easy to express the support of a playoff concept 
which has never been tested. All of your assumptions and 
theories work out perfectly. But the current structure of the 
bowl games, you protect the importance of the college football 
regular season and, as importantly, you have 29 communities 
committed to providing not just the financial support but a 
quality experience to the thousands of players and fans who 
attend each bowl game.
    The current bowl system does reward over 6,800 student 
athletes, creates more than $1 billion in annual combined 
economic impact to the host cities, donates one-quarter of a 
billion dollars annually to higher education, and gives 
millions to charitable endeavors in their own communities. 
Quite simply, it is a system that works well, benefits many, 
and ought not to be under attack.
    Mr. Chairman, I would like as well to submit a copy of a 
letter from the Association to Members of Congress dealing with 
the subject.
    Thank you for the opportunity to be here today.
    [The prepared statement of Mr. Fox follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. Hearing no objection, the letter will be entered 
into the record. I want to thank you, Mr. Fox.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. Our next witness is Mr. Bleymaier.
    Mr. Bleymaier, you're recognized for 5 minutes for the 
purposes of opening statements. Take as much time as you may 
consume.

                  STATEMENT OF GENE BLEYMAIER

    Mr. Bleymaier. Thank you, Mr. Chairman.
    Chairman Rush and members of the subcommittee and Ranking 
Member Barton, my name is Gene Bleymaier. I am the Athletic 
Director at Boise State University; and I also founded the 
Humanitarian Bowl in Boise, Idaho, 12 years ago and am 
currently on the board of directors of the bowl game.
    The issues I would like to address with you today are the 
following: First, competitiveness. And I would refer you to the 
handout that you received in your information packet.
    Boise State's football team is the winningest program in 
the country over the past 10 years, with a winning percentage 
of 84.3 percent and an overall record of 108 wins against 20 
losses. In the past 10 years, Boise State football has the 
Nation's best conference winning percentage at over 93 percent, 
70 wins and 5 losses, and also the Nation's best home winning 
percentage at 97 percent, 64 wins and 2 losses. In the past 5 
years, Boise State has finished the regular season undefeated 
three times: in 2004, '06 and '08.
    Boise State's football record ranks number eight overall 
all time in the country. The team has won over 70 percent of 
its games. Our success is not recent but spans nearly 80 years.
    Boise State is also one of the most nationally televised 
teams in the country, with no fewer than four games televised 
nationally each of the past 6 years. Thirty-three times in 
those years Boise State has been on national television; and we 
are scheduled to be on national television seven times again 
this fall, nearly six national telecasts per year.
    In 2004, Boise State went undefeated and finished the 
season ranked ninth in the BCS rankings. Boise State did not 
get invited to the BCS. However Michigan, ranked 13th, and 
Pittsburgh, ranked 21st, did get invited.
    In 2006, Boise State again went undefeated and finished the 
season ranked eighth in the BCS rankings and was invited to the 
Fiesta Bowl to play the University of Oklahoma. Boise State 
defeated Oklahoma in one of the greatest games ever played.
    In 2008, Boise State again went undefeated and finished the 
season ranked ninth in the BCS rankings. While Boise State did 
not get invited to the BCS again, Ohio State, ranked 10th, 
Cincinnati, ranked 12th, and Virginia Tech, ranked 19th, did.
    Three times in the past 5 years, Boise State has won all of 
its games in the current BCS system, never came close to 
playing in the national championship game. The BCS system not 
only restricts access but essentially precludes schools from 
playing in the national championship. How many more years do we 
need to go undefeated before we get a chance?
    We believe the BCS system is exclusionary and limits access 
to BCS bowls to the benefit of Automatic Qualifying Conferences 
and to the detriment of Nonautomatic Qualifying Conferences. 
The automatic qualifying criteria bestowed on the six Automatic 
Qualifying Conferences, in our opinion, should be adjusted, 
altered or eliminated.
    Third is revenue distribution. The BCS revenue distribution 
formula and automatic qualifying criteria is heavily weighted 
toward rewarding the AQ Conferences and not rewarding the Non-
AQ Conferences. The Automatic Qualifying Conferences receive 
approximately 90 percent of the BCS revenues unless a non-AQ 
Conference school, which encompasses 51 schools, qualifies for 
a BCS game.
    Annually, Non-AQ Conferences are only guaranteed a little 
over 9 percent of the total revenue to split among 51 
institutions.
    The last point is governance. The BCS does not afford 
conferences equitable representation on the BCS Presidential 
Oversight Committee, which is the body that governs the BCS. 
The Automatic Qualifying Conferences, the six, receive six 
votes. Notre Dame receives one vote. The nonqualifying 
conferences, 5 conferences, 51 schools, receive a total of one 
vote. Sixty-five schools get 6 votes, 51 schools get one vote, 
and one school gets one vote. This voting distribution is 
unfair, inequitable and totally unmanageable. One president 
cannot adequately represent 51 institutions in five different 
conferences.
    The NCAA sponsors 88 championships in almost every sport, 
but they do not sponsor the biggest one, the championship of 
the Football Bowl Subdivision, formerly Division 1-A. We 
believe there is a lot of revenue being left on the table 
without having the NCAA run this championship.
    The six Automatic Qualifying Conference commissioners and 
the athletic director at Notre Dame control the BCS and the 
national championship for major college football. This group 
has devised a system that gives them approximately 90 percent 
of the proceeds and essentially excludes over 50 institutions 
from playing for the national championship.
    The BCS system, in our opinion, needs to be more equitable 
financially, more accessible, and provide more institutions 
with fair representation.
    Thank you for the opportunity to share these concerns with 
you today.
    [The prepared statement of Mr. Bleymaier follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. The Chair thanks the gentleman and thanks all of 
the witnesses.
    Now the Chair recognizes himself for as much as time as he 
may consume for the purpose of asking questions of these 
witnesses.
    Let me begin by stating I really want to spend some time on 
this matter of revenue and revenue distributions. According to 
the BCS media guide, in the year 2008, $18 million 
automatically went to each of the six automatic conferences. I 
think this has been stated earlier. In one of these 
conferences, they had two teams in a BCS bowl, and the next 
conference received an additional $4.5 million.
    By contrast, the five other nonautomatic conferences 
automatically received in the aggregate a total of $9.5 
million, plus an extra $9.5 million because the Mountain West, 
for example, was in the Sugar Bowl. As such, each nonautomatic 
conference received approximately $3.8 million in BCS revenue 
for their member schools. Notre Dame, as was stated earlier, 
which is an independent school, automatically received $1.3 
million and qualifies for another $4.5 million all by itself if 
it is in a BCS game.
    The question that I would like to ask these members of the 
panel--and you can be very brief in the answers. I want to ask 
each and every one the members, can you comment on the fairness 
of the revenue distribution other than the scenario that I just 
outlined? How is that fair? Starting with Mr. Swofford.
    Mr. Swofford. Mr. Chairman, I think one has to go back to 
the beginnings of the BCS to understand the financial 
distribution. The BCS is totally voluntary. If any conferences 
don't want to be a part of it, they can opt out at any time.
    In order to come to a conclusion and a system that the 
conferences could agree upon and move forward with, we had to 
take into account what the various conferences were making in 
their current contractual agreements at the time the BCS was 
started. And at that point in time you had the Rose Bowl with 
the Big 10 and PAC 10, the Fiesta Bowl with the Big 12, the 
Sugar Bowl with the Southeastern Conference, and an offer on 
the table with the Blockbuster Bowl for the Atlantic Coast 
Conference in the Big East to receive equivalent dollars to any 
of those aforementioned bowls.
    Then the Orange Bowl wanted to connect with the Atlantic 
Coast Conference and the Big East as host institutions.
    So, at the beginning, you had the six conferences that 
currently have automatic qualification receiving significant 
dollars because of their ability, marketplace, and the history 
of the competitiveness within those leagues and the performance 
of those leagues that tied in to the major bowls. So I think 
that is what set the bar in terms of where we were.
    It also set the bar in a sense in terms of the other 
conferences that are a part of the BCS. In the 11 conferences--
and all of the conferences talked through this and agreed upon 
it and any changes that had been made in it since that point in 
time, the same thing has been true, the conferences have agreed 
upon it. It has been thoroughly discussed in terms of what the 
distribution would be, in terms of what the--what you would 
need to do as a conference to be an automatic qualifier in the 
BCS and agreed upon.
    Mr. Rush. I certainly appreciate the history, but it didn't 
answer the question. The way these revenues are distributed, 
where is the fairness? Is this a fair way?
    Mr. Swofford. I think, you know, a fairness a lot of times 
is from where you sit. I understand that. But I think it is 
fair because it represents the marketplace, and the BCS and 
bowls and post-season football are related to the marketplace. 
And I think you have to look at if the conferences did away 
with the BCS--and that could happen if the appropriate and 
right conferences, so to speak----
    Mr. Rush. I don't want to dominate the time. Thank you so 
much. I want to move to the next witness.
    Mr. Thompson, is this a fair way to distribute the 
revenues?
    Mr. Thompson. I would agree with Commissioner Swofford that 
basically these tie-ins are based on marketplace past history 
and contractual arrangements. Our position is they should be 
based more on performance-based basis, and that perhaps each 
conference receives a particular base level and then every 
first placement by each conference receives an equal 
distribution. And if you have a second team, certainly that 
warrants an additional stipend. But the fairness would be that 
if you play in a game, that each of those first participants 
have equal distributions.
    Mr. Rush. Mr. Fox, would you care to answer this? I 
recognize Mr. Fox right now. Would you please answer the 
question?
    Mr. Fox. Sure. Obviously, from our perspective, we are not 
a member, we are not part of the system itself but obviously 
part of the bowl system. And that, too, is predicated on the 
marketplace drives the dynamics. We have conference agreements 
with the Big 10 and Big 12 respectively, and we come to a 
market-based decision as to what our team payout will be. So, 
again, it goes to the entire system, not just at the BCS level.
    Mr. Rush. Mr. Bleymaier, would you take a shot at that 
question, please?
    Mr. Bleymaier. Yes. Mr. Chairman, I would agree that at the 
origin these were bold-based contracts with conferences. But 
now that the system has changed, now that we have the BCS 
rankings and the formula and 10 slots, it is a whole different 
market, it is a whole different model. And I think it would not 
hurt the bowls at all financially and help the schools if this 
was more performance-based. And you take the top 10 based on 
the BCS rankings and reward them with opportunities to play in 
those BCS games, and then distribute the revenues accordingly.
    Mr. Rush. Let me just remind all the witnesses, I 
understand that when you have market-based considerations that 
you should take into account when you are making, say, 
decisions. But you can't forget that the basic foundations for 
all of these universities, all these participating programs are 
the Federal and State tax dollars that go into these schools. 
And right now all of these schools are experiencing financial 
crises simply because of the fact that they have to cut back on 
their budgets. And so marketplace considerations are one thing, 
but you can't obviate or just can't deny and erase the fact 
that there is a determinant for equitable treatment simply 
because you are using Federal tax dollars for your basic 
existence. All of these universities are.
    And given that the States are imposing steep educational 
cuts to public universities funded by taxpayer dollars, is 
there a role for this Congress? Should Congress intervene? I 
will ask you, Mr. Swofford, and you can start. Should Congress 
intervene in this matter?
    Mr. Swofford. Well, I think all of us involved with this 
welcome input from Congress or anywhere else that can help us 
improve the system. It is not a perfect system, we understand 
that. It is a system that has been able to bring the 
conferences together. And if the conferences determine that it 
is a system they don't want to be a part of, then the BCS 
structure unravels at that point and the conferences that would 
be--I don't think the major conferences are going to be a part 
of a system that brings their market value down rather than 
where they know it could be on an individual basis.
    So the beauty of what we have and the necessity of what we 
have is that it has been something that can bring the 
conferences together. I think the conferences without automatic 
qualification have been enhanced with the BCS during this 11-
year period both financially as well as with the opportunities 
to play in the various BCS bowls that have been mentioned.
    Mr. Rush. Mr. Thompson.
    Mr. Thompson. Simply, certainly our university presidents, 
myself, we work for and with the representatives of the people, 
the fans. Every poll that I have seen indicates a strong desire 
for a different playoff format, a playoff format. And simply 
looking at the whole process, I feel part of our fundamental 
flaw issue is the representation. With one president 
representing 51 institutions, it is very difficult to filter 
that message down or to have a very loud voice. It might be 
outvoted. There might be a unanimous opposition.
    Mr. Rush. Does the Congress, the U.S. Congress, have a role 
in this matter?
    Mr. Thompson. Does U.S. Congress have a role? I think the 
U.S. Congress again represents fans, constituencies, and our 
university presidents work with that same group of 
constituency.
    Mr. Rush. Mr. Fox.
    Mr. Fox. Yes, Mr. Congressman. I think one of the things 
that is important to stress here is taking a look at the entire 
system and how it has evolved over the 90 years. And there has 
always been communication, there has been dialogue, things have 
transpired and evolved. We had the alliance, the coalition of 
BCS. You can see over time how things have evolved. And it has 
been a constant work in progress to try to take care of all the 
constituents that are a part of this. At the end of the day, it 
is a system that has worked for 90 years. And, as I said, $250 
million going back to higher education each year, that is a 
pretty successful benchmark and each year it goes up.
    In this current BCS system, we were here 4 years ago, there 
were 28 bowl games; there is now 34. So it has also allowed 
additional opportunities for teams in the marketplace as well, 
and those dollars are going back to higher education too.
    Mr. Rush. So your answer to the question is, does 
Congress--yes or no? Does Congress have a role or Congress 
doesn't have a role?
    Mr. Fox. I think the people who have a vested interest in 
the business are the people within the system, and they 
probably are best issued to deal with the system.
    Mr. Rush. So the answer is no, Congress, doesn't have a 
role?
    Mr. Fox. It is your choice, sir.
    Mr. Rush. Mr. Bleymaier.
    Mr. Bleymaier. Chairman Rush, I would think if you look at 
the history of the development of the BCS and where we have got 
to today, it has evolved over time. It has never been a perfect 
system and it has changed. But if you look, a lot of times 
historically that change has only come with hearings like we 
are having today. And, unfortunately, with the threat of 
lawsuits, it would be better for all served if the conferences 
could agree on a plan and a formula and approve it themselves. 
But because of the representation disparity that we have, that 
is virtually impossible, in our opinion. The only way this is 
going to change is with help from the outside.
    Mr. Rush. Thank you very much. The Chair has exhausted his 
time right now, and the Chair now recognizes the ranking member 
for such time as he may consume.
    Mr. Barton. Thank you, Chairman Rush.
    First, I want to compliment you gentlemen for your 
refreshing candor. We do have a new tradition here that we ask 
you to testify under oath, which has not normally been the case 
for an authorization subcommittee. But having said that, the 
testimony today is much more cogent than it was 4 years ago and 
it is much more open about what the real reason the current 
bowl system exists, and it is money. When you are talking about 
market share and market dominance and all that, you know--and 
when Mr. Fox is talking about it is a week of events and how 
much money it brings to San Antonio, at least we are putting on 
the table why the current system is so entrenched.
    I do think that after today's hearing we need to have a 
piece of advice for the BCS coordinating board. You should 
either change your name to BES for Bowl Exhibition System, or 
just drop the C and call it the BS system, because it is not 
about determining the championship on the field.
    I am going to read some of Mr. Thompson's testimony 
because, to the average fan, this is the reason that people are 
so upset. His reason--Mr. Thompson's reason number three that 
the current system is flawed is that: The BCS is based on a 
flawed premise. Nearly half of the FBS teams are eliminated 
from the national championship before the season even begins. 
The current BCS system is based on a fundamentally flawed 
premise that computers and pollsters can look at six or seven 
outstanding teams, all of whom have lost no more than one game 
and few, if any, have ever played each other in that year, and 
decide which are the two best and should play in the national 
championship game. It is impossible to know which of those 
great teams are actually the best unless they play each other. 
Computers don't know, pollsters don't know, and the BCS surely 
doesn't know. Nearly half of the FBS teams are eliminated from 
the national championship even before the season begins. None 
of the 51 teams that play in the non-AQ conferences can, for 
all practical purposes, ever win a BCS national championship 
given how the current system is constituted. These teams are, 
in effect, done before day one. A system that produces this 
result is patently unfair.
    I don't think that is a debatable proposition. Mr. 
Swofford, you are the head of the BCS. You are the point 
person. How do you answer that, that from day--from before the 
first game is even played, half the football teams in the 
country that play college football at Division 1-A don't have a 
prayer to win in the national championship?
    Mr. Swofford. Well, I think the answer to that, Congressman 
Barton, is that the polls--and I know a lot of people question 
the polls, they have been questioned forever and ever in 
college football. But the polls reflect what has happened on 
the field, and it reflects a mix of people's view from a 
national perspective. Each of the 11 conferences nominate 
potential pollsters for the Harris Poll, which is our newest 
poll.
    Mr. Barton. But how do you answer Mr. Bleymaier and his 
testimony? In 2004, Boise State Broncos were undefeated and 
ranked ninth in the BCS. They were excluded. But Michigan at 
13th and Pittsburgh at 21st got into a BCS game. In 2008 they 
were undefeated again, and they ended up ranked ninth in the 
BCS. Again, they were excluded. Ohio State, Cincinnati, and 
Virginia Tech, all ranked lower than Boise State, were in the 
BCS. The one year, 2006, they were undefeated, they did get 
invited to the BCS, and son of a gun, they beat Oklahoma in one 
of the most exciting college football games that I have ever 
watched.
    I mean, again, half the teams that start out don't have a 
prayer that they are going to get to play in that championship 
game. And even the best of the best--and I didn't realize how 
good Boise State was, but their record compares with any team 
in the country. They just happen to be in a small population 
State, in a weak media market and, with all due respect, have 
the ugliest football field I have ever seen. I try to watch 
them, and it just hurts my eyes to watch that blue field. I 
mean.
    Mr. Swofford. Congressman, as I said, the polls and how 
this is determined has been agreed upon by all 11 conferences. 
That is where we are today.
    Mr. Barton. But you yourself said in response to Mr. Rush's 
question that these conference agreements are about money. It 
is about market share. It is not about athleticism on the 
field. Mr. Bleymaier pointed out that there are 88 NCAA 
schools--88 NCAA championships. Those are determined on the 
field. The Division 1-A college football isn't. And the 
difference is, with possibly the exception of basketball, none 
of the NCAA sports make any money. Football does. Division 1-A 
football does. And I understand that a conference affiliation 
at a Big 12 where my school is, Texas A&M has got an athletic 
budget. I don't know what it is but I bet it is $30 million, 
$40 million a year. You know? So I am glad that they have it 
and I am glad that they do it and I am glad they are part of 
the Big 12. But even in Division 1-A, you could have a playoff 
system make just as much money, but you would have the added 
benefit that the championship would be determined on the field.
    Mr. Swofford. I have a little differing view of whether it 
is determined on the field. In my earlier remarks, I talked 
about the regular season and the importance of the regular 
season, and the fact that I don't think anybody would argue 
this point: That college football has the best regular season 
in all of sports. And the reason that is, is because that is 
our playoff. Every day----
    Mr. Barton. Why do you think every game of the regular 
season?
    Mr. Swofford. Every day of the regular season is a part of 
that playoff. Every game matters. We have got a situation now 
where, if you are in Texas you are probably concerned about 
what is going on on the West Coast or in the Southeastern 
Conference or the Atlantic Coast Conference, because what 
happens in those games may well impact what happens in the Big 
12, for instance. So every game is basically a playoff during 
the regular season in college football.
    Mr. Barton. If that is your argument, then you shouldn't 
have but one or two nonconference games and you shouldn't be 
adding regular season games. You should also have the 
championship game between the South and the North or the East 
and the West Divisions of your power conferences. That game 
ought to mean something. It doesn't.
    I think one of you testified, or at least we read some 
testimony, that attendance is down at these championship--these 
so-called conference championship games because they don't mean 
anything.
    Mr. Swofford. Actually, they do. Because if you win those 
games, that is the automatic qualifier from that conference 
into the BCS game.
    Mr. Barton. So why was attendance down in the ACC 
championship game last year if it means so much?
    Mr. Swofford. That is a good question. We'd like to get it 
back up, and I think we will. It may have been the matchup in 
the State of Florida, it might have been geographic. It might 
have been related to the conference.
    Mr. Barton. Let me ask a few more questions about the BCS. 
It is a voluntary organization. I would as soon assume it is 
chartered as a corporation. Is that right or wrong?
    Mr. Swofford. No.
    Mr. Barton. It is not chartered? It has a governing board, 
and there are eight votes on the governing board. Is that 
right?
    Mr. Swofford. At the presidential level, yes, sir. There 
are 11 at the commissioners level.
    Mr. Barton. And Mr. Bleymaier pointed out that the six 
power conferences each have one vote. I understand that. The 
other 51 schools, unfortunately, combined get one vote. I don't 
understand that. And Notre Dame gets a vote. Why does Notre 
Dame get a vote?
    Mr. Swofford. Well, because of their history and tradition 
and the role they have in college football historically and 
presently.
    Mr. Barton. OK. Why wouldn't USC get their own vote?
    Mr. Swofford. They are a conference member. They have a 
vote through----
    Mr. Barton. Or Oklahoma or Alabama or Ohio State or Penn 
State? They have got storied college programs.
    Mr. Swofford. Notre Dame is an independent.
    Mr. Barton. Is it because Notre Dame has its own national 
contract for televising college football?
    Mr. Swofford. I don't think it is because of that. I think 
it is because of the place that they have in the tradition in 
history of college football. And if they weren't involved in 
the BCS, and qualified, for instance, for the national 
championship game, that would certainly undermine the current 
system.
    Mr. Barton. Using that logic, Delaware, which is the first 
State in the Nation, ought to have 50 votes in the House 
because of their tradition and they were the first one to 
ratify the Constitution and the first State. I mean, that 
doesn't make a lot of sense to me.
    The money that the BCS gets for their football television 
contract, where does that actually go? I mean, do you have a 
bank account in New York, Chicago? Does it go to each of the 
conferences directly, or does it go to a central repository 
financial institution and then it is distributed?
    Mr. Swofford. It goes to a central escrow account, which is 
then distributed back out through the various conferences.
    Mr. Barton. Who controls that?
    Mr. Swofford. The conference that is the coordinating 
conference.
    Mr. Barton. So that rotates?
    Mr. Swofford. Yes.
    Mr. Barton. Is there an audit committee?
    Mr. Swofford. Yes?
    Mr. Barton. Are those audits publicly available?
    Mr. Swofford. Yes.
    Mr. Barton. They are publicly available. Does the BCS as a 
legal entity make a profit?
    Mr. Swofford. No. It goes to the institutions and 
conferences.
    Mr. Barton. So the BCS as a repository is purely a 
contractual legal entity; and the money flows through that to 
the member conferences, and then the member conference 
distributes it to the members of their conference. And if you 
are an independent, depending on where you rank in the 
hierarchy, you would get directly from the central repository. 
Is that right?
    Mr. Swofford. It is a pass-through. Yes, sir.
    Mr. Barton. Does Notre Dame get a disproportionate share 
because they have one vote? Or, do they get more than Boise 
State or they get more than Ohio State because they seem to be 
in and of themselves----
    Mr. Swofford. Notre Dame receives, if they do not play in a 
BCS game, a 1/66th share, which is basically the equivalent of 
what they might receive if they were a member of one of the 
six.
    Mr. Barton. If they do play, then they get the $18 million? 
Is that right?
    Mr. Swofford. No. They get the $4.5 million if they do 
participate in the game. Yes, sir.
    Mr. Barton. OK.
    Mr. Swofford. One thing, sir. Could I clarify one point?
    Mr. Barton. Sure.
    Mr. Swofford. In terms of looking at the revenue 
distribution, the other way to look at it is the 10 teams that 
play in the five BCS games, each receive the same amount of 
money regardless of which conference you are coming from.
    Mr. Barton. That is another point. Each member conference 
gets its $18 million, which they distribute as they see fit 
within their conference?
    Mr. Swofford. Correct.
    Mr. Barton. Now, the team that actually plays in the BCS 
game, the Orange Bowl or the Sugar Bowl or whatever, do they 
get--in addition to their share of the $18 million, do they get 
10 to $15 million for actually playing in the game?
    Mr. Swofford. No, sir. It is up to the conferences how--
each conference is probably a little different. But each 
conference distributes its money to its membership in the way 
it chooses.
    Mr. Barton. The Alamo payoff to each team is how much?
    Mr. Fox. $2.25 million.
    Mr. Barton. Each team gets $2.25 million. The Fort Worth 
Bowl, each team gets $525,000. But like the big BCS bowls, each 
team gets like 15 or $16 million. Isn't that right?
    Mr. Swofford. 18.
    Mr. Barton. Now, that 18 million, in addition to the other 
18 million, the second 18 million, the participating team also 
has to share that with its conference members.
    Mr. Swofford. There are not two 18 millions. There is one 
18 million.
    Mr. Barton. I am confused.
    Mr. Swofford. I am sorry.
    Mr. Barton. But to go back to my Alamo Bowl friend. You 
give to each participating team $2.25 million. Right?
    Mr. Fox. Yes.
    Mr. Barton. To the team. That goes to the team. That 
doesn't go to the BCS, that goes to the team?
    Mr. Fox. It goes to the conferences, and then they have a 
revenue distribution.
    Mr. Barton. But the Orange Bowl gives each participating 
team $18 million? Is that right?
    Mr. Swofford. They give each conference $18 million.
    Mr. Barton. So when Mr. Rush was talking about the 18, that 
money comes from the bowl to the conference. And there is not 
an additional amount of money that goes to the team that 
actually plays in that game?
    Mr. Swofford. That is correct.
    Mr. Barton. So it is technically possible that, at the bowl 
level, that Mr. Fox's--a team could actually lose money going 
to his bowl because he doesn't get $2.25 million; he gets his 
share of that. And if he takes 100 football players and 20 
cheerleaders and 200 band members and the athletic department 
and whoever else gets to tag along, it could actually cost the 
school money to go play in his bowl. Is that fair?
    Mr. Fox. That is a fair assessment. And I think that is 
incumbent upon the current system that we need to make those 
business decisions to see if it makes sense. I know in our case 
I don't think any of the teams ever lost money.
    Mr. Barton. Mr. Chairman, I have got a lot more questions. 
But Mr. Green has been very patient. I am going to suspend and 
let Mr. Green ask some questions, and then I would ask 
unanimous consent that you could come back to me.
    Mr. Rush. There will be a second round.
    Mr. Green. Thank you, Mr. Chairman.
    And, again, we all represent as alumni from our individual 
schools, and I will remind my colleague at Texas A&M that it 
took years for the University of Houston, which is a very urban 
university, to get into the Southwest Conference. And after we 
were winning it enough, the Southwest Conference was destroyed. 
And which impact----
    Mr. Barton. That was the problem. We just wanted you in the 
conference. We didn't want you to win any games.
    Mr. Green. That's right. I understand that. But when we 
were winning, then all of a sudden the Southwest Conference 
became no more and that impacted a number of schools, including 
large urban universities. You are not in a big conference, you 
are recruiting. Obviously, the invitation is the bowl game. And 
it comes down to money.
    Mr. Swofford, you are the Commissioner of the Atlantic 
Conference, the ACC, which in recent years hasn't been 
powerhouse football, college football. Last year, the ACC's 
conference champion was Virginia Tech, which was ranked 19 in 
BCS standings. Two conferences, these champions do not 
automatically qualify for BCS bowl games, have much better 
records than AC teams last year, the Mountain West Conference 
that had three teams that finished in front of Virginia Tech, 
University of Utah, Texas Christian University, and Brigham 
Young University, while the Western Atlantic Conference, the 
WAC, had one team, Boise State University. Despite the 
disparity in team records, the ACC received 18 million in 
guaranteed BCS money for its schools, while the Mountain West 
and the WAC each received 3.8 million.
    Why should the ACC conference be guaranteed so much as 
compared to the Mountain West and the WAC? And again, the 
University of Houston is not a member of either of those 
conferences.
    Mr. Swofford. Congressman, I think it goes back to what I 
said earlier in terms of the marketplace and how the BCS came 
together and the ACC's market value at the time, which has 
probably only been enhanced with the addition of Miami and 
Virginia Tech and Boston College. And I think you would say the 
same thing about the other conferences that are automatic 
qualifiers.
    You can always take one year in the standings and say this, 
that, or the other. The previous year the ACC champion again 
was Virginia Tech, and then they were ranked number three in 
the BCS standings. So there are three schools in our league 
that have played in the national championship games, some on 
multiple occasions. So you can take any one year, and it looks 
good or it doesn't look as good in terms of various 
conferences' champions.
    Mr. Green. I know that inter-conference records, Mountain 
West actually had a better percentage in college football in 
2007-2008 with a 55 percent win rate against teams in the 
automatic conferences, while the Southeastern Conference, the 
SEC, had only a 45 percent winning percentage.
    Does the BCS have some type of leveling that looks at not 1 
year or 2 years, but looks at over a period of time at the 
winningness of different conferences? Is that part of the BCS 
standards?
    Mr. Swofford. Yes, sir. The automatic qualifying standards 
are based on 4-year cycles.
    Mr. Green. Another question. During the regular season, 
your key argument for the BCS is it makes college football 
regular season exciting and relevant, and you cite college 
basketball and note that fans don't pay attention to the 
regular season until March Madness and the NCA tournament. Do 
television networks have a broadcast--that broadcast the 
regular season games have a vested interested in the BCS in 
order to keep the ratings for their regular season games high? 
In your contract negotiations, does Fox and ESPN retain--did 
Fox and the ESPN retain the BCS? In other words, is that one of 
the reasons why the season record is important, that they keep 
the ratings up during your regular season?
    Mr. Swofford. Well, you know, I don't think Fox or ESPN 
when we have television negotiations with those entities, which 
we had last fall, they did not try to be a player in the 
structure of the post season. I think obviously they are 
interested in the regular season being as strong as it can be, 
but they have not had a role in determining what the post 
season would be at all.
    Mr. Green. I would just give the contracts, the NFL which 
has a playoff program, it doesn't seem like their regular 
season suffers because they have a playoff system. Why is 
football different, college football different?
    Mr. Swofford. Well, I think it relates to the fact that 
since we don't have a playoff, every game in the regular season 
is critically important in terms of the post season and whether 
you will qualify for the national championship game or a BCS 
game. Or, as you move into the later stages of a season, sir, a 
team might know it is not going to be in the BCS game or the 
national championship games, but those last games they have 
something to play for if there is a bowl and an opportunity to 
compete in a bowl. So I think the bowl system as a whole, not 
just the BCS system, contributes to how valuable the regular 
season is and how interesting and fun that it is for the 
players and fans.
    Mr. Green. Mr. Chairman, you have been real gracious. I 
have one more question of Mr. Fox. And coming from Houston with 
which you would call one of the smaller bowls, and I know 
although ours is smaller that the Alamo, you claim that smaller 
bowls, the bowl association itself for college football adopts 
a playoff system. And I appreciate the economic impact for 
those games on the host communities; and, however, I don't see 
why a seven-game playoff system with eight teams is any more 
detrimental than the bowl association, than the BCS which is a 
five-game with 10 teams. Either way, the vast majority of the 
bowl games are basically exhibition and they always have been.
    Mr. Fox. To address that, obviously, there are a number of 
different models being put forward as far as a playoff is 
concerned. But any time you go to a playoff format, you are 
automatically distinguishing basically the NCAA tournament 
versus an NIT tournament, if they exist at all. Right now, the 
NIT is subsidized by the NCAA to provide those opportunities. 
In the bowl system, it is the communities that are stepping 
forward to underwrite those opportunities.
    And if you look at--I think a point to go back to on the 
conference championship games is a good point. Why are they 
down? Obviously, somewhat economically related in this recent 
state of the economy. But also you have a one-week turnaround 
under most situations where teams don't know they have 
qualified for a championship game until one week out. Well, 
their fans with a one-week turnaround and a tough challenging 
economy are going to have a tougher decision whether to go to 
that destination. I know we hosted a championship game in San 
Antonio 2 years ago. We had number one Missouri versus number 
eight Oklahoma. Arguably, both teams in a footprint. Should be 
an easy sellout. Correct? We didn't. We sold 60- to 65,000. 
Missouri is number one. If they win that championship game, 
they are going on to the national championship game. So there 
is always that next game. The fans have a chance to wait and 
hold off for the next game. The same could be said with the 
playoff. Are they going to travel 15,000 strong on four 
successive weeks? I doubt it.
    Mr. Green. The last thing. What if we had a rotating? For 
example, the Alamo Bowl would rotate into the playoff system, 
where you would have a rotating bowl system? I don't know if 
that has even ever been considered by BCS.
    Mr. Fox. That is effectively what the BCS is now, is you 
have five games all rotating the championship game.
    Mr. Green. But it is not, there are a lot of bowl games but 
there is only a certain number that are allowed to be there.
    Thank you, Mr. Chairman.
    Mr. Rush. The Chair thanks the gentleman. The Chair 
recognizes himself for some additional questions.
    Mr. Bleymaier, it has been stated earlier that one of the 
most exciting games in recent years was the 2007 Fiesta Bowl, 
and your school Boise State's dramatic defeat over the 
University of Oklahoma. A fine game, well coached, well played. 
The game has become an instant classic and replays were on 
sports highlights all over the place repeatedly. So can you 
comment on how big bowl games affect your school from an 
economic standpoint and also from a recruiting standpoint?
    Mr. Bleymaier. Yes, Mr. Chairman. That game was obviously 
one for the ages and put Boise State on a national stage equal 
to the long-time college football powers. You can't buy that 
kind of exposure, you can't buy that kind of prestige. Our 
enrollment applications at the university skyrocketed within a 
week of the Fiesta Bowl victory. So that exposure, like I said, 
is priceless.
    In addition, with our revenue split through the five 
conferences, the nonqualifying conferences, Boise State 
received $6 million that year. And--well, the conference 
received $6 million; Boise State received 70 percent of that, 
which is approximately $4.2 million. We have been to nine bowl 
games in the last 10 years. That is the only year that we 
netted any revenue. It has been talked about that these bowls 
make money. And some bowls do. But there are also probably 
around a dozen or so more that don't make any money at the end 
of the day, as Mr. Barton was talking about, when you factor in 
the expenses that the teams have and the requirements that the 
schools have to buy tickets.
    I am involved in our bowl in Boise, and I can tell you it 
may on paper look like there is money being made, but in 
reality money is not being made. The conferences are 
subsidizing those bowl games.
    So the bowl system is great and I support it, and we are 
glad we have one in Boise. I don't see how adding two more 
games in any way is going to negatively impact the bowl system. 
In fact, the bowl system continues to grow. When we created the 
Humanitarian Bowl in Boise, Idaho 12 years ago, I believe there 
are 20 bowl games and we went to the committee and added 
another one, and there was talk at that time: There are too 
many bowls; we don't need any more bowls. Well, we were 
approved. I think there was 21 or 22. That continued, and now 
there is 34. And there is talk of creating more bowl games.
    So even if a playoff is not in the offing here, I predict 
there is going to be more bowl games in the future. Do I think 
that is necessary? No. Personally? Six-and-six teams do not 
warrant going to a bowl game. As an athletic director at a 
school, I don't think we need to be rewarding student athletes 
for winning six games and losing six games, or, for that 
matter, winning seven games and losing five games. To me, a 
post-season experience, you ought to earn it on the playing 
field and it ought to mean something. It ought to be special. I 
don't think having six-and-six teams in bowl games are special, 
and I don't think a playoff in any way will lessen the regular 
season. In fact, I think it will enhance regular season games. 
Right now, because there is only two teams that are going to 
play in that national championship, I think it hurts the 
regular season.
    Last year, when USC lost to Oregon State in September, 
basically they were out of it. So for USC, their season is 
over. That doesn't help with their remaining games on their 
schedule to bring interest or excitement into their 
communities. But by expanding this to more teams, that is going 
to enable more programs to remain involved and remain in the 
hunt for the gold ring at the end of the season. And that, in 
my opinion, is going to heighten interest in the regular 
season, totally contrary to what has been mentioned earlier.
    Mr. Rush. Can you address how this affects your recruiting, 
knowing that under the current system it is almost impossible 
to participate in a championship game.
    Mr. Bleymaier. Absolutely. Mr. Chairman, high school 
student athletes, they want to play on national television. 
They want to play for a national championship. And when you are 
going into homes and you are trying to woo a student to your 
university, if you don't have the opportunity, as good an 
opportunity or a fair and equitable opportunity at the start of 
the season as a number of other schools, those schools are 
going to use that against you in the recruiting process and 
say, why would you consider Boise State? They are never going 
to play for a national championship. They were lucky to get 
into the Fiesta Bowl in 2006, and they probably won't qualify 
in the future. But if you come to our school, you are 
guaranteed as an automatic qualifying institution, regardless 
of what your record is, an opportunity to play in a BCS game.
    That is prestige, that is exposure, that is national 
television. It definitely hurts us in recruiting if we are not 
able to offer that same opportunity from day one that other 
schools do.
    Mr. Rush. Thanks. The Chair has exhausted his time. The 
Chair now recognizes the ranking member, Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. I have a unanimous 
consent request to put in the record two statements by 
Congressman Simpson of Idaho and Congressman Miller of 
California.
    [The information was unavailable at the time of printing.]
    Mr. Rush. Hearing no objection, so ordered.
    Mr. Barton. Thank you. You will be happy to know, Mr. 
Chairman, and our panel, I have a plane to catch so I am not 
going to be quite as loquacious this round.
    I am going to start off with Mr. Fox at the Alamo Bowl. And 
I am not picking on you, Mr. Fox. You just happen to be 
representing the bowls that are not the major big bowls and you 
are here. So this is not a knock on the Alamo Bowl. I love the 
Alamo Bowl. I like going to the Alamo Bowl. I have got 
relatives in San Antonio and I really enjoy your city.
    The Alamo Bowl, like all these other bowls, is a nonprofit 
entity. Is that correct?
    Mr. Fox. Correct.
    Mr. Barton. And I would think most of the people that 
participate are volunteers?
    Mr. Fox. Very much so.
    Mr. Barton. Probably some paid people, just an executive 
director or somebody to manage it on a day-to-day basis and 
organize all these activities. But the majority of your folks 
are community citizens who just volunteer because it is fun and 
they like to help?
    Mr. Fox. Absolutely. We have got a full-time staff of six 
and probably 500 volunteers.
    Mr. Barton. Now, you say that your money that you raise, 
your revenue source is the ticket sales. You don't get--do you 
also get some of the television money?
    Mr. Fox. The primary funding streams for a ball game really 
are ticket sales, TV revenue, and sponsorships in general.
    Mr. Barton. General sponsorships. OK. How much of that 
money percentagewise actually flows through to the charity that 
you choose to raise money for?
    Mr. Fox. Really, if you look at it, the biggest charity 
that we have are the two participating institutions. They are 
getting over 75 percent of that $2.25 million that I was 
talking about. That is the primary charity. After that, now we 
do some things in our local marketplace, scholarship programs 
to local high schools, seniors going to higher education, those 
type of things. But right off the top, you are at least 75 
percent.
    Mr. Barton. But that is going to the schools. I would 
quibble that a contribution or an allocation to the team that 
is participating is not a charity, but I am not going to argue. 
If that is the way college football defines itself, then I am 
not going to argue that point today.
    How much of the money goes to classic charities, boys and 
girls clubs, scholarships, underprivileged children? I don't 
know what else in San Antonio, or at least do you give not to 
the schools?
    Mr. Fox. Several hundred thousand dollars will go out to 
local organizations, whether it is boys and girls clubs, 
whether it is the Kids Sports Network. You name it, there are a 
number of different organizations who benefit from the bowl as 
well, besides the institutions. Obviously that is the primary 
donor, if you will.
    Mr. Barton. But the primary reason that your bowl and all 
the other bowls exist is to generate money for the local 
community. And you do pay expenses or pay a contribution to the 
schools that actually play the game, which is a good thing. But 
you are pretty up front that it was an event, it was a series 
of activities. You are trying to get people to come to San 
Antonio to have a good time and spend money.
    Mr. Fox. Absolutely. When you look at it----
    Mr. Barton. I am good with that. I have gone to San Antonio 
and had a good time and spent money, so I am OK with that.
    Now, why couldn't you do the same thing and be a part--the 
Alamo Bowl be a quarter final game or something like that? Why 
would that not--why would fewer people come, spend less money, 
and you not be able to do all the good deeds that you do with 
the money you generate if it were a part of a playoff system?
    Mr. Fox. One of the challenges with the playoff system, 
quite honestly, is the fact you are having--it doesn't matter 
what format. Let's say you are a 16-game format. You have got 
15 games, you have got four successive weeks. If in your 
original statement when you talked about A&M and Texas Tech and 
San Antonio were to sell out, absolutely. But in a quarter 
final matchup, we might have the University of Washington----
    Mr. Barton. And the Red Raiders would spend lots of money. 
Now, the Aggies are frugal. We probably wouldn't. But the 
Raiders, they will spend money.
    Mr. Fox. All teams are very generous in that perspective. 
But when you look at teams that are not in the geographic 
footprint, you come into a situation where you have a challenge 
of people traveling across the country. I brought up the issue, 
I think when you stepped out, about the Big 12 championship 
game. You brought up the question, why championship game 
attendance is down. Obviously, the economy is one of the issues 
right now, but also a one-week turnaround. When you have a 
championship game, teams often don't know where they are going 
until one week out. Those fans have to make the decision, do I 
commit to the championship game now, in a week, or am I going 
to roll the dice; do we win the championship game to go on to 
the BCS game or another bowl game, which is 3 or 4 weeks down 
the road.
    Mr. Barton. But with your current system, and I don't know 
exactly, but the Alamo Bowl gets like the number six team in 
the Big 12 and the number six team in the Big 10 or something?
    Mr. Fox. Somewhere between four and six, depending on how 
many teams are in. Yes.
    Mr. Barton. So there have been some years that you were 
getting teams that were 7-5, 6-6. But if you are part of a 
playoff system, you are probably going to get teams that are 9-
2, 8-3, hot team on a roll. You may be getting Boise State, who 
is coming in undefeated but not from a power conference. You 
know, it would seem to me that your actual product on the field 
in a playoff system is going to be a little bit--and my Aggies 
have been in your Alamo Bowl, so I am not going to say the 
current product is bad. But Penn State was a lot better the 
year they played A&M in the Alamo Bowl. You probably would be 
better off. Wouldn't you? Revenuewise. I don't see how you 
would----
    Mr. Fox. Well, not necessarily, because you also could not 
be in that system. Keep in mind, if you go to a playoff there 
is no question that the bowl would be jeopardized.
    Mr. Barton. It depends on how many, and it depends on what 
the BCS and the NCAA decide to do. You could have a playoff 
system with 64 teams and use every bowl that is currently in 
there. You could do that. You could have a playoff system where 
you had home field advantage to the higher ranked team. You 
could have a playoff system where you took the--I don't want to 
say the better bowls, but the more established bowls--and 
certainly the Alamo Bowl would be one--and then have the other 
bowls, which tend to be the smaller, newer bowls, could still 
do their bowl games. And, you know, since most of the teams 
aren't going to get to play for the national championship 
anyway, those bowls would still do all the events you are 
talking about. But if you are one of the playoff bowls, you are 
going to be a part of a system that your bowl may have the 
national championship team. It just has to win your game in the 
next tour, whatever, to make it.
    Mr. Fox. That is certainly part of a system that could be 
in place and could be discussed. Now, when you talk about a 64-
team playoff is, what, 63 games? You could still be playing.
    Mr. Barton. I am not advocating that.
    Mr. Swofford, I have been real nice to you. I haven't asked 
a question this round. I can't let it go. You know, you are the 
guy that is representing the BCS. What is the wisdom behind the 
original BCS to the four existing bowls? Well, way back when it 
took--there were more bowls than that because the Cotton Bowl 
was part of the original BCS. But the last, until 3 years ago 
you had the Rose Bowl, the Sugar Bowl, the Orange Bowl, and the 
Fiesta Bowl, and the championship game rotated each year. Then, 
3 years ago, all of a sudden you had a BCS championship game in 
addition to those bowls. Why didn't you--if you are going to go 
to an extra game, why didn't you make that the plus-one game 
and take the winner of the two highest ranked BCS bowls and put 
them in a real championship game? Why did you just create 
another game that is just another bowl game?
    Mr. Swofford. Well, first of all, the idea you just 
expressed was discussed at that time. It was also discussed a 
year ago on behalf of the ACC and the SEC, and there was not 
enough support within the group to move that forward. I think, 
really, when you go back to the origin of what is now the four 
games plus the national championship game which was added, as 
you said, for the past 3 years, and the double hosting model 
where that rotates to one of the four BCS bowls each year and 
they host both their bowl game and then the national 
championship game, what that did was actually open up access.
    Mr. Barton. Open up access?
    Mr. Swofford. Yes. Because it gives two more teams the 
opportunity to play.
    Mr. Barton. In a nonchampionship game.
    Mr. Swofford. In the BCS games. And it did not add a game 
for the two teams that are playing in the championship game. 
And that was important to some people.
    Mr. Barton. Mr. Thompson, Mr. Bleymaier, does that make 
sense to you, what he just said?
    Mr. Bleymaier. Mr. Chairman, yes, it does. It did provide 
more access, because remember there are six automatic 
qualifying conferences. With four games, there is only eight 
slots. So they are guaranteed six of the eight. So we only had 
two chances to get in.
    Mr. Barton. But it didn't give you a much better chance to 
get into the game.
    Mr. Bleymaier. Absolutely. This isn't really in reference 
to the national championship.
    Mr. Barton. But the whole point of the BCS, theoretically, 
although we now know it is money, but at least to the fans it 
is to pick the championship, which you so eloquently pointed 
out.
    Mr. Bleymaier. Right. And it was interesting, as 
Commissioner Swofford has mentioned, that this was discussed 
last year. It was discussed by the commissioners. It was never 
discussed with the athletic directors, who are part of the BCS 
committee, which I found very curious. But to your point, it 
didn't do anything more for the national championship, but it 
did provide more access.
    Mr. Barton. And it provides more money. It is one more 
game.
    Mr. Bleymaier. Right.
    Mr. Barton. Another week out of the classroom.
    Mr. Bleymaier. It didn't, because there is not a playoff. 
So it just basically added another bowl game.
    Mr. Barton. It is the week after all the other bowl games.
    Mr. Swofford. If I may, sir. Most of the second semesters 
have not started at the majority, large majority of the 
schools.
    Mr. Barton. I am just being sarcastic. That is one of the 
reasons that we don't have a playoff system theoretically. But 
we keep showing that that is really not the reason, because we 
keep adding regular season games, we keep playing Tuesdays, 
Wednesdays, and Thursdays. And now, the BCS has added another 
game in addition to the big four daddy bowl games.
    Mr. Thompson, if you had a vote, would you add--I think you 
have--your have put forward an actual playoff proposal which 
they are going to review. But if your vote was the current 
system or the four BCS bowls plus a playoff, the plus one, how 
would you vote on that?
    Mr. Thompson. I would prefer our proposal with a playoff 
rather than a plus one.
    Mr. Barton. I am with you. But if you weren't given that 
vote--I mean, we have got them at least talking about a plus-
one system. I would hope you would prefer that over the current 
system.
    Mr. Thompson. I agree with Commissioner Swofford and Mr. 
Bleymaier, that certainly the BCS format now has increased 
access. It in essence has created two additional spots. Not for 
the national championship, but it has created two additional 
spots.
    So to answer your question directly: Playoff. But if that 
is not an option, would you prefer the plus one? Certainly that 
is something that should get strong consideration, continued 
consideration, as all proposals.
    Mr. Barton. Mr. Chairman, this is my last question and I 
have to run to the airport.
    If we move our bill and the President signs it, and I feel 
very confident that if Chairman Rush and Chairman Waxman want 
to move the bill that they are going to be successful, and I 
think Senator Hatch and other Senators are going to be 
successful in the Senate if they choose to move forward. So 
let's say that our bill that is currently before this 
subcommittee becomes law, that you can't advertise the BCS as a 
national championship game because it would be a violation of 
the Federal Trade Act, would you still do the BCS? Or would you 
actually change and go to a playoff?
    Mr. Swofford. Because you don't have to change. Our bill 
doesn't say you have to change the BCS. It just says you can't 
advertise it as a national championship series.
    Mr. Swofford. Congressman, I don't know the answer to that. 
It hasn't been discussed at any level in direct reference to 
the bill. And I am not a lawyer. I can't really speak in that 
sense. So I think that is something that would have to be 
discussed. I would think the--well.
    Mr. Barton. I would encourage you to start discussing it, 
because I think there is better than a 50 percent chance that 
if we don't see some action in the next 2 months on a voluntary 
switch to a playoff system, that you will see this bill move. 
So it needs to be something that you need to start discussing.
    Thank you, Mr. Chairman. And thank you, gentlemen. I have 
appreciated your testimony. It is enlightening. And while I 
don't agree with all of it, it is certainly honest and sincere 
and I appreciate you being here.
    Thank you, Mr. Chairman.
    Mr. Rush. The Chair thanks the gentleman. And the Chair 
wants to just commend the gentleman as he leaves for his 
extraordinary work.
    I just have one question. It seems to me the issue right 
here is the fact that we have a national championship series 
that is not really a national championship series, and that the 
reason why the legislation, the reason why the involvement of 
Congress is that it is being advertised as a national 
championship series. And we think that, although this has a 
title, it is really a misnomer; the title is a very empty title 
because of the process and the procedure of selecting the 
national championship. And it seems to me that there might be--
under the current law that there might be some fraudulent 
practices here, and that is the reason why we are there.
    Is this a meaningful title, the national championship 
title? Is this a meaningful title, in your opinion, Mr. 
Swofford?
    Mr. Swofford. Yes, I think it is. If you look at the level 
to which college football teams aspire to being the BCS 
national champion, yes, I think it is.
    Mr. Rush. Mr. Thompson.
    Mr. Thompson. Based on the ranking system, which I feel are 
confusing the computers and polls, yes, because, as Mr. 
Swofford said previously, it has in their opinion, the polls 
and the BCS rankings, said these are the one and two ranked 
teams.
    Mr. Rush. OK. But now is there any other way of looking 
at--is there any other bona fide or better way of selecting the 
national championship?
    Mr. Thompson. I feel there is.
    Mr. Rush. OK. Mr. Fox.
    Mr. Fox. I think the numbers speak for themselves. If the 
BCS has been in existence for 11 years and had a one versus two 
matchup and only nine times before that was able to happen, I 
think it has allowed that system to take place.
    Mr. Rush. And Mr. Bleymaier?
    Mr. Bleymaier. I think that the national championship ought 
to be decided on the field like the other 88 NCA championships 
are.
    Mr. Rush. The Chair certainly thanks all the witnesses for 
your time and also for your forthrightness, for your 
participation. Let the record reflect that there will be an 
additional 7 days for any additional questions that might be 
presented to the witnesses via writing, in writing. And we 
would ask that you respond within another 7 days if there are 
in effect any additional questions.
    And, lastly, the Chair entertains a unanimous consent 
request to enter into the record the statement of Mr. Neil 
Abercrombie of Hawaii. And hearing no objection, it is so 
ordered.
    [The prepared statement of Mr. Abercrombie follows:]
    Mr. Rush. The Chair now concludes this hearing. The hearing 
today is now adjourned.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
